                                                                                         May 20, 2014


Dr. Arthur B. Keys, Jr.
President and Chief Executive Officer
International Relief & Development


Dear Dr. Keys:

I write in response to IRD’s letter of May 19, 2014, signed by IRD General Counsel Jason Matechak.
Mr. Matechak’s letter stated that he and SIGAR had “come to an understanding” regarding IRD’s use
of confidentiality provisions in employee separation agreements. The purpose of this letter is to
notify you that we believe Mr. Matechak’s letter does not accurately describe SIGAR’s ongoing
investigation of IRD’s efforts to prohibit its employees from providing critical information to the
“officials of any government.” 1 SIGAR has not agreed to any “understanding” with IRD. To the
contrary, we are actively seeking information concerning IRD’s compliance with whistleblower
protection laws and regulations.

Although Mr. Matechak’s “preliminary response” to SIGAR on May 15, 2014, included several pages
of background materials, neither that letter nor his May 19, 2014, response fully addressed the
issues raised in SIGAR’s letter of May 5, 2014. In particular, Mr. Matechak’s responses indicate that
IRD has declined to notify its former employees that the confidentiality provisions of the separation
agreements they signed are null and void with regard to their rights at whistleblowers. Instead, Mr.
Matechak indicated that 49 former employees were e-mailed in order to:

          [C]larify that the confidentiality provisions in the separation agreement are not meant
          to preclude former employees from participating in a government audit, review, or
          investigation and to verify that IRD would not seek to enforce the separation
          agreement in a manner that would run afoul of the False Claims Act. 2

This statement does not fully address SIGAR’s concern that IRD is attempting to discourage current
and former employees from pursuing their rights and remedies under federal whistleblower laws.
Mr. Matechak’s statement that the confidentiality provisions “are not meant to preclude former
employees from participating in a government audit, review, or investigation” 3 omits instances in
which a whistleblower provides information to SIGAR or another federal agency prior to the initiation
of a formal inquiry. This omission is troubling because, as you know, the proactive disclosure of
information is what often prompts the initiation of government audits, reviews, and investigations in
the first place.



1 IRD, Confidential Separation Agreement and General Release.
http://apps.washingtonpost.com/g/page/world/ird-confidentiality-agreement-warns-against-making-negative-
statements/997/.
2Letter of Jason Matechak, Senior Vice President & General Counsel, to Jack Mitchell, Director of the Office of
Special Projects (May 19, 2014).
3   Id.
Moreover, Mr. Matechak’s statement gives the false impression that SIGAR is only concerned about
whistleblowers exercising their rights under the False Claims Act. To the contrary, statutes such as
41 U.S.C. § 4712 provide significant additional protections for whistleblowers who are the victims of
employer retaliation. Section 4712 prohibits employers from discharging, demoting or otherwise
discriminating against an employee who discloses information to Congress, the Inspectors General
and other federal authorities. Significantly, this section also states that the “rights and remedies
provided for in this section may not be waived by any agreement, policy, form or condition of
employment.” Therefore, agreements between IRD and its employees should not only take into
account the protections of the False Claims Act, but should also clearly indicate that they do not in
any way limit the rights and remedies afforded by the whole host of federal laws and regulations
designed to protect whistleblowers.

Section 4712 also requires the heads of agencies to ensure that the recipients of U.S. taxpayer
dollars inform their employees in writing of their rights and remedies as potential whistleblowers.
Therefore, it is additionally troubling that IRD omitted such information from not only its separation
agreements, but also from its Code of Ethics and Business Conduct. Mr. Matechak’s suggestion that
the Compliance Matters! article sent to IRD employees on March 4, 2014, is evidence of IRD’s
support for whistleblowers is similarly misleading. Rather than informing employees of their rights to
provide information to Congress and other federal authorities concerning matters of waste, fraud
and abuse, the article merely directs them to report “fraud, wasted [sic], and abuse to the [IRD]
Hotline or contact managerial staff.” 4

The representations made in Mr. Matechak’s response letters to SIGAR, including the assertion that
IRD is “commencing a review to update its Code of Business Ethics and Conduct as a part of this
exercise,” 5 indicate that IRD has not yet fully disclosed the extent of its compliance with federal
whistleblower protections. Therefore, in light of IRD’s apparent reluctance to fully address the issues
raised in SIGAR’s letter of May 5, 2014, I request the following information:

      1. Copies of the complete separation agreements for all IRD employees who have entered into
         such an agreement with IRD since 2004.

      2. Full contact information (i.e., name, address, telephone and e-mail) for all 49 former IRD
         employees who signed separation agreements containing confidentiality provisions.

      3. Copies of all e-mails or any other correspondence sent to each of the 49 former employees
         explaining the scope and enforceability of the confidentiality provisions of the separation
         agreements.

      4. A list of all IRD contracts, cooperative agreements, and grant agreements with USAID, the
         Department of State, and any other U.S. government agency that each of the 49 former
         employees referenced above was involved in.

      5. A clear statement as to whether IRD has ever sought to enforce the confidentiality provisions
         of its separation agreements with former employees. If IRD has sought to enforce these
         provisions, please identify each former employee involved and provide detailed descriptions
         of the circumstances of each enforcement attempt.



4   Compliance Matters!, “Whistleblower Protection” (March 4, 2014).
5Letter of Jason Matechak, Senior Vice President & General Counsel, to Jack Mitchell, Director of the Office of
Special Projects (May 15, 2014).


SIGAR-14-60-SP Inquiry Letter: IRD Whistleblower Protections Response                                    Page 2
Please provide the requested information within 14 days of the date of this letter to John Arlington,
General Counsel, at (703) 545-5990 or john.g.arlington.civ@mail.mil. Please do not hesitate to
contact him should you have any questions.


                                                                    Sincerely,




                                                                    John F. Sopko
                                                                    Special Inspector General
                                                                       for Afghanistan Reconstruction



cc:

The Honorable Dr. Rajiv Shah
  Administrator, U.S. Agency for International Development




SIGAR-14-60-SP Inquiry Letter: IRD Whistleblower Protections Response                                   Page 3
JRD          International Relief & Development



                                            May 19, 2014

VIA ELECTRONIC MAIL ONLY

Mr. Jack Mitchell
D irector of the Office of Special Projects
Special Inspector General for Afghan Reconstruction
1550 Crystal Drive, 9th Floor
Arlington, VA 22202

       Re:     International Relief and Development
               Separation Agreernent/Whistleblower Protection Issue
               Final Response

Dear Mr. Mitchell ,

Thank you for confirmi ng that you have had an opportunity to review international Relief &
Development (IRD)'s May 15, 2014 preliminary response to Mr. Sopko's May 5, 2014 letter to Dr.
                                                                      111
Keys. I appreciated our telephone conversations on May 15th and 16 and I am glad that we were able
to come to an understanding as to IRD 's actual use of confidentiality provisions in separation
agreements especially in light of the Compliance Matters! article on "Whistleblower Protection,"
issued to all IRD employees on March 4, 2014.

Following-up on our discussions, I have been advised that since 2004, IRD entered into separation
agreements with 83 fom1er employees. Of these 83 separation agreements 49 included the language of
concern in Mr. Sopko's letter. And of these 49 fomrnr employees, 7 held positions in Afghanistan for
IRD. IRD has e-mailed these 49 former employees to clarify that the confidentiality provisions in the
separation agreement are not meant to preclude fonner employees from participating in a government
audit, review, or investigation and to verify that IRD would not seek to enforce the separation
agreement in a manner that would run afoul of the False Claims Act.

Please Jet us know if you have any questions or concerns. We look forward to meeting with you at
your convenience.




~
Jason Matechak
Senior Vice President & General Counsel
International Relief & Development

cc:    Mr. Michael Carroll, USA ID Inspector General
       Douglas Kramer, Esq. , USAID General Counsel



                                                                         fmprur·iuF. l .i :1(J.   ll 11 i/,/i11,~   J i;, liliuur1'.
I9           International Relief & Development
             1621 North Kent Street   Founh Floor   Arlington, VA 22209   p 703.248.0161     F 703.248.0194        www.ird.org




                                                    May 15, 2014


VIA ELECTRONIC MAIL AND REGULAR MAIL

Mr. Jack Mitchell
Director of the Office of Special Projects
Special Inspector General for Afghan Reconstruction
1550 Crystal Drive, 9th Floor
Arlington, VA 22202

       Re:      International Relief and Development
                Separation Agreement/Whistleblower Protection Issue
                Preliminary Response

Dear Mr. Mitchell,

International Relief & Development (IRD) has received Mr. Sopko's May 5, 2013, Jetter to Dr. Keys
regarding the recent article in the Washington Post. We understand SIGAR's concern regarding IRD's
use of separation agreements based on how confidentiality commitments were portrayed in the a1ticle.
I assure you that IRD has never had a policy prohibiting employees from informing government
officials of critical information. Nor does IRD use confidentiality agreements to prohibit employees
from talking to U.S. government officials.

As we prepare our May 19th response, we would like to provide SIGAR with this preliminary response,
whose purpose is to demonstrate that IRD has a corporate culture and compliance code that promote
disclosure, and to provide an overview of our efforts to update IRD separation agreements to address
SIGAR's concerns.

IRD Protects the Rights of Whistleblowers

IRD ' s Code ofBusiness Ethics and Conduct is based on principals that are easily understood by our
employees around the world: 1) do what is right, 2) obey the law, 3) comply with donor requirements,
4) work responsibly, 5) protect company reputation and assets, and 6) respect the beneficiaries of our
work. 1

Contrary to the impression created by the article, IRD 's Code requires employees to report incidents of
alleged impropriety promptly. It also makes clear that reporting may be directly through management,
to IRD' s Chief Compliance Officer, or anonymously through the IRD Hotline. IRD promotes its
Hotline aggressively. On the IRD website, the compliance page (www.ird.org/about-us/compliance)
states "To report fraud, waste, or abuse in an IRD program, call 703-957-1500 or email hotline@ird-

1
 See attachment A: Code ofBusiness Ethics and Conduct. (IRD is commencing a review to update its
Code of Business Ethics and Conduct as part of this exercise).



                                                                                       Improving L ives. B11ilding Li'IJelihoods.
Mr. Jack Mitchell
Director of the Office of Special Projects
May 15, 2014
Page2

dc .org. Reporting is confidential and may be made anonymously." IRD also promotes the Hotline
through posters placed prominently throughout headquarters and field offices and through internal staff
publications such as Compliance Matters!, a weekly e-publication issued by IRD 's Chief Compliance
Officer and through IRD's internal staff newsletter, Inside Voices, which is published monthly and sent
                         2
to all staff by the CE0.

IRD 's policy that staff report allegations of impropriety is part of IRD' s standard new employee
training package. 3 The policy to report allegations is also the subject of standalone training. 4 In fact, a
month before the Washington Post story was published, IRD issued a Compliance Matters!, which
referred to a recent case of a government contractor' s confidentiality agreements: 5

        One of the nation's largest government contractors was recently the subject of a US
        national newspaper story because it allegedly required employees seeking to report
        fraud to sign internal confidentiality statements barring them from speaking to anyone
        about their allegations, including government investigators and prosecutors. A
        whistleblower employee of the firm is suing because, according to his attorneys, such
        statements violate the federal False Claims Act and other laws designed to shield
        whistleblowers.

        IRD' s Code of Business Ethics and Conduct (Section Ill.B) requires employees to
        report all instances of.fraud, corruption, or waste. IRD's policies protect staff members
        from retaliation when they report in good faith. IRD also has strong whistleblower
        protections in place. (On the other hand, false or malicious reporting is a violation of the
        Code of Business Ethics and Conduct.)

       Report fraud, waste[], or abuse to the Hotline or contact managerial staff. Contact
       compliance@ird-dc.org with any other questions.

In addition to its mandatory disclosure policy, IRD has a clear process for addressing compliance
issues raised through management reporting or the Hotline. 6 IRD's internal review procedures have

2
  See attachment B: Compliance Matters!, Hotline posters.
3
  See attachment C: New Entry Training Presentation, pp. 18- 19.
4
  See attachments D-F: Incident Reporting, Management, and Disclosures; Compliance Matters!,
"Whistleblower Protection," June 12, 2013; and Whistleblower Protection Training (transmitted with
the June 12, 2013, edition of Compliance Matters!, pp. 4- 6.
5
  See attachment G: Compliance Matters! "Whistleblower Protection," March 4, 2014.
6
  See attachments H- K: Compliance Matters !, "Incident Review Process," May 17, 2011; Review
Process Map attached to the May 17, 2011, Compliance Matters!; Compliance Matters!, "Internal
Review Policy and Procedures," May 9, 2013); and Internal Review Policy and Procedures attached to
the May 9, 2013, Compliance Matters!



                                                                                Improving Lives. Bttildi11g Livelihoods.
Mr. Jack Mitchell
Director of the Office of Special Projects
May 15, 2014
Page 3

resulted in the submission of 39 disclosures to donors since 2010. For example, one internal disclosure
resulted in IRD's attempt to recover funds dive1ted by a former finance manager in Sudan. lRD
secured the debarment of the former employee, won an arbitral award against the fonner employee,
and has attached the former employee's properties in Australia. 7 While the case against the former
employee is ongoing, IRD's efforts provide a strong deterrent to others who may wish to try to help
                                    8
themselves to development dollars.

Contrary to the impression created by the Washington Post article, IRD has a strong policy requiring
employees to raise issues and a track record of affinnatively reporting impropriety to its donors and
taking action against those who fail to abide by our Code ofBusiness Ethics and Conduct.

IRD Has Adjusted the Language of its Separation Agreements.

As noted, the Washington Post article created the impression that IRD uses confidentiality agreements
to preclude employees from disclosing fraud, waste, and abuse to government officials. What is true is
that IRD bas on occasion used separation agreements for some employees leaving IRD. Based on our
preliminary review - which we are now verifying - IRD has entered into just over 100 separation
agreements with departing employees since 2004. (Not all departing employees receive severance or
enter into separation agreements with IRD.)

The confidentiality provisions of these severance agreements essentially require that 1) departing
employees abstain from disparaging or defaming IRD or 2) disclosing confidential or business
proprietary information. The intent of the severance agreements IRD used was to protect legitimate
confidential information and to affirm the departing employee's commitment not to slander or defame
IRD.

While the separation agreements were used for legitimate purposes, IRD has never sought to enforce a
confidentiality provision involving a government audit, review, or investigation. As long as former
employees who have signed a separation agreement do not disparage IRD or reveal corporate
confidences, they are free to share their experiences with anyone - including government officials and
the media.

However, based on the concerns raised before publication of the Washington Post article, IRD agreed
that its intent could have been clearer, obtained opinions on the legality of the severance agreement



7
  See attachment L: Denied Parties Listing for Former IRD Employee Godfrey Ladu, Arbitral Award
finding for IRD, Judgment of the Eastern District of Virginia finding for IRD, Fourth Circuit Court of
Appeals Decision denying Mr. Ladu's appeal, Australian Federal Court Order Upholding U.'S.
Arbitration, Liens on Ladu Properties in Australia.
8
  The funds IRD is pursuing are its own. The diverted funds were not charged to the donor.



                                                                           improving Lives. Building Livelihoods.
 Mr. Jack Mitchell
 Director of the Office of Special Projects
 May 15, 2014
 Page 4
                                                                     9
 template, and decided to update the template separation agreement. The separation agreement
 template has been rewritten to provide greater clarity as to the intent of the confidentiality provisions
 and to highlight IRD's desire for individuals to disclose allegations of impropriety. Please note section
 4 (highlighting what is released); section 6 (including express exclusions from the general release);
 sections 8-10 (addressing confidentially and creating an express exception for disclosures to
 government officials); and section 11 (excluding disclosures from the Mutual Non-disparagement
 provision). We trust these changes address the concerns raised in Mr. Sopko' s letter, but we remain
 open to SIGAR' s feedback on the changes made.

 Please let us know if you have any questions or comments on this initial response. IRD will provide a
 final response by May 19, 2014, as requested. I would be pleased to meet with you in person to discuss
 IRD policies and procedures, or any of the changes to the template separation agreement we have
 outlined here.

 As with all external inquiries, IRD welcomes the opportunity to reexamine its practices so that it can
 be the best implementing partner it can be for both our donors and the ultimate beneficiaries of our
 work. We look forward to our continued cooperation with SIGAR.


cj;,i~cer~
       Matechak
 Senior Vice President & General Counsel
 International Relief & Development

 cc:      Douglas Kramer, Esq.
          USAID General Counsel

          Mr. Michael Carroll
          USAID Inspector General

          Mr. Aman Djahanbani
          USAID Sr. Procurement Executive.




 9
     See attachment M, copy of proposed revised draft separation agreement.



                                                                              Improving Lives. Building Livelihoods.
                                                 Office of the Special Inspector General                                       John F. Sopko
                           SIGAR I for Afghanistan Reconstruction                                                  Special Inspector General




                                                                   May 5, 2014

          Dr. Arthur B. Keys, Jr.
          President and Chief Executive Officer
          International Relief and Development
          1621 North Kent Street
          Suite 400
          Arlington, VA 22209


          Dear Dr. Keys:

          An article in today' s Washington Post raises concerns about your company's work on
          reconstruction projects in Afghanistan on behalf of the U.S. Agency for International
          Development (USAID). 1 The article reports, among other things, that International Relief &
          Development (IRD) has attempted to use confidentiality agreements as a way of prohibiting its
          employees from making critical statements about IRD to "funding agencies" or "officials of any
          government. " 2

          Although the article notes that IRD may now be revising this policy, your company's conduct
          raises serious questions regarding its commitment to transparency and to government oversight of
          the hundreds of millions of dollars in U.S. taxpayer funds IRD receives from USAID. In
          particular, IRD's policy of prohibiting employees from informing government officials of critical
          information appears to violate the False Claims Act, 31 U.S.C. §§ 3729-3733, federal
          whistleblower statutes, and the Federal Acquisition Regulation.

          As a former Federal prosecutor and in my current position as Special Inspector General for
          Afghanistan Reconstruction, I am well aware of the courage it takes for employees of government
          contractors to report waste, fraud, and abuse of government funds. The threat of retaliation for
          reporting problems to oversight agencies is all too real. I am simply not willing to tolerate an
          attempt to institutionalize employee intimidation. Therefore, I am initiating an inquiry into these
          allegations.

          To aid in our inquiry, please provide the following information:




                 1 Scott Higham, Big budgets, little oversight in war zones, The Washington Post, May 4, 2014.

                 http://www.washingtonpost.com/investigations/doing-well-by-doing-good-the-high-price-of-working-in-war-
                 zones/2014/05/04/2d5f7 ca8-c715-11e3-9D7-7ce307 c56815 story.html.

                 2 IRD, Confidential Separation Agreement and General Release.
                 http://apps.washingtonpost.com/g/page/world/ird-confidentiality-agreement-warns-against-making-negative-
                 statements/997 /.


                 1550 Crystal Drive, 9th Floor       Mall: 2530 Crystal Drive
                 Arlington, Virginia 22202           Arlington, Virginia 22202-3940        I   Tel: 703 545 6000    www.slgar.mll



SIGAR-14-55-SP
                    1. Has IRD asked its current or former officers and employees to sign the confidentiality
                       agreement referenced in the Washington Post report or any similar agreement? If so,
                       please provide the number of current and former officers and employees who have
                       been asked to sign this agreement or any similar confidentiality agreement.

                    2. The Washington Post quotes IRD as claiming that it "is changing its policy to ensure
                       that [IRD's] policies confirm to the latest developments in employment law." Does
                       this mean that IRD will no longer include confidentiality provisions in future
                       employment or post-employment agreements?

                    3. Has IRD notified all current and former officers and employees that confidentiality
                       agreements of this nature are prohibited by law and are therefore null and void?

                    4. Please provide a certification that IRD has notified all current and former officers and
                       employees that any such confidentiality agreement entered into with IRD is prohibited
                       by law and is therefore null and void. Please provide this certification no later than
                       May 19, 2014.

                 Please address your responses and provide appropriate points of contact within 14 days of the
                 date of this letter to Jack Mitchell, Director of the Office of Special Projects, at (703) 545-
                 5964 or john.h.mitchell 16 l .civ@mail.mil. Please do not hesitate to contact him should you
                 have any questions about this request.




                                                                                       John F. Sopko
                                                                                       Special Inspector General
                                                                                        for Afghanistan Reconstruction



          cc:

          The Honorable Dr. Rajiv Shah
            Administrator, U.S. Agency for International Development




                 1550 Crystal Drive, 9th Floor   Malling 2530 Crystal Drive
                                                 Arlington, Virginia 22202-3940
                                                                                  I   Tel 703 545 6000   I   www.slgar.mll
                 Arlington, Virginia 22202



SIGAR-14-55-SP
